WAIVER

Supreme Court, U.S.
FILED

MAY 0 7 2020

Supreme Court of the United States

OFFICE OF THE CLERK

No. 19-1215
Steven Sussex, et ux.
(Petitioners)

v.

City of Tempe, Arizona
(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.
Please check the appropriate boxes:
A Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

o I am a member of the Bar of the Supreme Court of the United States.
I am not presently a member of the Bar of this Court. Should a response be requested, the
response will be filed by a Bar member.
Signature
Date: .......May 5, 2020
(Type or print) Name_Sarah R. Anchors, Assistant City Attorney
0 Mr.
0 Ms.
0 Mrs.
Firm

0 Miss

City of Tempe, City Attorney's Office

Address_21 East Sixth Street, Suite 201
City & State
Phone

Tempe, Arizona

Zip 85281

(480) 350-8227

SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONERS IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
Cc:
John D. Wilenchik
Wilenchik & Bartness, P.C.
2810 N. Third St.
Phoenix, AZ 85004
Counsel of Record for Petitioner
Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court , docket number available.

RECEIVED
MAY 18 2020
OFFICE OF THE CLERK
SUPREME COURT U.S

